May 4, 2001

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:      Audit Report - Mail Transport Equipment Service Center Decision Analysis
              Report, Performance and Financial Benefits
              (Report Number TR-AR-01-003)

This report presents the results of our audit of the Mail Transport Equipment Service
Center Network. It is part of a series of reports and focuses on a Postal Service
Decision Analysis Report, dated June 30, 1997, recommending implementation of a
contractor-operated network in lieu of the Postal Service operated system in place at
the time. The analysis forecasted the new network would improve performance and
reduce 10-year operating expenses from $3.9 billion to $3.6 billion by achieving
operational efficiencies—and as a result, save an average of more than $30 million per
year. Our audit responds to a request from the Board of Governors to evaluate whether
the new system would achieve the performance and financial benefits anticipated by the
Decision Analysis Report.

Our audit revealed the new network was better than the old system, but still needed
improvement to achieve Decision Analysis Report standards. Our audit also revealed
the network would not achieve anticipated financial benefits. Instead, costs would
exceed the 10-year $3.6 billion forecast by more than $1.4 billion, and exceed the old
Postal Service operated system by more than $1.1 billion. The Decision Analysis
Report was inaccurate because equipment processing and repair volume was
significantly higher than expected, forecasted savings from transportation were not
realized, and savings associated with the Greensboro, North Carolina, service area
were incorrectly calculated. Consequently, the Decision Analysis Report
underestimated transportation and facility space requirements—as well as the cost of
“start-up” and continuing operations.

We recommended Postal Service management develop and submit a Decision Analysis
Report Modification Request to adjust for unanticipated conditions; reduce operating
volume by reusing serviceable equipment rather than returning it to service centers for
processing; and reduce the cost of dedicated transportation by shipping mail transport
equipment on networks that also carry mail. Management agreed with our
recommendations regarding the reduction of volume and dedicated transportation.
However, they disagreed with our recommendation to submit a Decision Analysis
Report Modification Request because they felt the Mail Transport Equipment Service
Center Program was not technically a capital program, and because unanticipated costs
were volume driven and as such, were only operating variances.

Management’s comments regarding the Decision Analysis Report Modification Request
were not responsive. The Mail Transport Equipment Service Center Program does not
have to be a capital program to require a Decision Analysis Report Modification
Request, and significant cost overruns are not excluded from Decision Analysis Report
modification requirements simply because they are volume driven. We believe that
Postal Service Handbook F-66, General Investment Policies and Procedures, and
Handbook F-66D Other Investment-Related Policies and Procedures, clearly require
submission of a Decision Analysis Report Modification Request, and we are concerned
that management considers cost overruns of the magnitude forecast in our audit as
merely operating variances. We view this recommendation unresolved, and plan to
pursue it through the formal audit resolution process. Management’s comments and
our evaluation of their comments are included in the report.

The Office of Inspector General (OIG) considers recommendation one as significant
and, therefore, it requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective action is completed. The
recommendation should not be closed in the follow-up tracking system until OIG
provides written confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have questions or need additional information, please contact Joe Oliva, director,
Transportation, at (703) 248-2317 or me at (703) 248-2300.



Debra S. Ritt
Assistant Inspector General
 for Business Operations

Attachment

cc: 	Anthony M. Pajunas
    John R. Gunnels
Mail Transport Equipment Service Center                         TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits


                                   TABLE OF CONTENTS

Executive Summary                                                   i

Part I

Introduction                                                       1


   Background                                                      1

   Objective, Scope, and Methodology                               2

   Prior Audit Coverage                                            2


Part II

Audit Results                                                      5


   Performance Benefits                                            5


   Financial Benefits                                              8

        Volume                                                     10      

        Dedicated Transportation                                   11          

        Facility Space Requirements                                12 

        Service Center Operations and Start-Up Costs               12 

        Greensboro, North Carolina                                 13 

   Recommendations                                                 13
   Management’s Comments                                           13 

   Evaluation of Management’s Comments                             13 


   Appendix A. Audit Methodology                                   18 

   Appendix B. Statistical Sampling and Projection for Survey      22 

   Appendix C. Management’s Comments                               26 

Mail Transport Equipment Service Center                                           TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits


                                  EXECUTIVE SUMMARY
 Introduction 	                The Mail Transport Equipment Service Center Network is a
                               centrally managed system of 22 contractor operated
                               equipment service centers designed to supply mail
                               processing facilities with mailbags, trays, sleeves, pallets,
                               hampers, carts, and large rolling containers.

                               In 1997, Postal Service management prepared a Decision
                               Analysis Report recommending a $1.3 million capital
                               investment to implement the contractor-operated system as
                               a replacement for the Postal Service operated system in
                               place at the time. The report forecasted the new system
                               would improve performance and reduce 10-year operating
                               expenses from $3.9 billion to $3.6 billion by achieving
                               operational efficiencies—and as a result, save an average
                               of more than $30 million per year. On June 30, 1997, the
                               Board of Governors approved the Decision Analysis
                               Report—with project implementation scheduled to begin in
                               November 1997, phased in over 17 months, and completed
                               by April 1999. However, fielding was not complete until
                               January 2000. From the outset, the project was troubled by
                               allegations of poor performance and excessive costs. As a
                               result, the Board of Governors asked the Office of Inspector
                               General to evaluate the program. This is part of a series of
                               reports.

                               The objective of our audit was to determine whether the
                               Mail Transport Equipment Service Center Network would
                               achieve the performance and financial benefits anticipated
                               by the Decision Analysis Report.

 Results in Brief 	            Based on a survey of 89 Postal Service facilities and follow­
                               up telephone interviews with seven area mail transport
                               equipment specialists, the new contractor operated network
                               is performing better than the old Postal Service operated
                               system, but still needs improvement to achieve performance
                               standards specified in the Decision Analysis Report. Report
                               standards required the network to deliver the right amount
                               of quality equipment to the right place at the right time,
                               improve customer satisfaction, ease employee frustration,
                               and enhance mail operations. Respondents indicated
                               causes of network difficulties included returning usable




                                                i
Mail Transport Equipment Service Center                                            TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits


                               equipment to service centers for processing and reissue;
                               hoarding equipment at user facilities because the network
                               was not reliable; and trucks moving empty because the
                               network was suboptimized. Consequently, respondents felt
                               the network was not consistently delivering the right
                               equipment to the right place at the right time, customers
                               were still not satisfied, employees still felt frustrated, and
                               mail operations were still not optimized.

                               Our audit also revealed that the new system would not
                               achieve anticipated financial benefits. Instead, it would
                               exceed the 10-year $3.6 billion operating expense forecast
                               by more than $1.4 billion. As a result, 10-year forecasts for
                               the new system exceeded the old system by more than
                               $1.1 billion. The Decision Analysis Report was inaccurate
                               because equipment processing and repair volume was
                               significantly higher than expected, anticipated transportation
                               savings were not realized, and savings associated with the
                               Greensboro, North Carolina, service area were incorrectly
                               calculated. Because of unexpected increases in reported
                               volume, unrealized transportation savings, and the
                               calculation error, the Decision Analysis Report understated
                               transportation requirements by $1.0 billion; facility space
                               requirements by $.1 billion; service center “start-up” and
                               continuing operations by $.1 billion; and “other”
                               considerations by $.2 billion.

                               Postal Service Handbook F-66, General Investment Policies
                               and Procedures, dated April 1999, requires managers to
                               track approved Decision Analysis Report projects, issue
                               compliance reports to ensure the Board of Governors is
                               advised regarding progress toward anticipated goals, and
                               submit modification requests for Board approval when
                               confronted with unforeseen conditions like unanticipated
                               volume and cost overruns. Although managers expressed
                               early concern about volume, and took some action to
                               mitigate impact on operations and cost, their compliance
                               reports did not fully portray the problem, and managers did
                               not submit a modification request to the Governors for
                               approval. Consequently, the Board may not have been fully




                                                ii
Mail Transport Equipment Service Center	                                           TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                               cognizant of the magnitude of the problem—or of actions
                               management planned in order to compensate. As a result,
                               costs for transportation, facilities, operations, and other
                               requirements may have increased without sufficient
                               awareness by the Board—or benefit of their emphasis on
                               corrective actions.

 Summary of                    We recommend that the vice president, Network Operations
 Recommendations               Management:

                                •	   Develop a Decision Analysis Report Modification
                                     Request to adjust for unanticipated conditions, and
                                     submit the request to the Board of Governors for
                                     approval.

                                •	   Reduce operating volume, consistent with contract
                                     volume guarantees, by requiring facilities to reuse
                                     serviceable equipment rather than returning it to service
                                     centers for processing.

                                •	   Improve efficiency and lower cost by reducing the
                                     shipment of mail transport equipment on dedicated
                                     networks.

 Summary of                    Management agreed with our recommendations regarding
 Management’s                  the reduction of operating volume and dedicated
 Comments                      transportation. However, they disagreed with our
                               recommendation to develop and submit a Decision Analysis
                               Report Modification Request. They provided the following
                               reasons:

                               •	 The Mail Transport Equipment Service Center Program
                                  was not technically a capital program.

                               •	 Unanticipated costs were volume driven, and as such,
                                  were only operating variances not requiring a Decision
                                  Analysis Report revision.

                               Management also made several additional comments
                               regarding differing perspectives, concerns, and questions
                               about the source, interpretation, and accuracy of our data.
                               These additional comments were not necessarily associated
                               with specific recommendations. Management’s comments,
                               in their entirety, are included in Appendix C to this report.




                                                 iii
Mail Transport Equipment Service Center                                            TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits


 Overall Evaluation of         Management’s comments regarding the reduction of
 Management’s                  operating volume and dedicated transportation were
 Comments                      responsive. However, management’s comments regarding
                               the Decision Analysis Report Modification request, and their
                               additional comments were not. The Mail Transport
                               Equipment Service Center Program does not have to be a
                               capital program to require a Decision Analysis Report
                               Modification Request, and significant cost overruns are not
                               excluded from Decision Analysis Report modification
                               requirements simply because they are volume driven. We
                               believe that published Postal Service investment policies
                               clearly require submission of a Decision Analysis Report
                               Modification Request, and we are concerned that
                               management considers cost overruns of the magnitude
                               forecast in our audit as merely “operating variances.” We
                               view the disagreement on this recommendation unresolved,
                               and plan to pursue the formal resolution process.

                               Although management commented on the details of our
                               work, we noted they did not significantly challenge the
                               magnitude of our results. The Postal Service is facing a
                               potential 10-year cost overrun of more than $1 billion. The
                               Mail Transport Equipment Service Center involves an
                               expenditure of $3.6 billion. Clearly, the Board of Governors
                               has a major interest in being fully informed about the
                               program. The Decision Analysis Report process facilitates
                               the flow of information.

                               We noted management’s additional comments. However,
                               throughout our audit we routinely met with senior managers
                               and officials to update them on the progress and preliminary
                               indications of our work. During those meetings, we routinely
                               sought input and differing perspectives, and we considered
                               that information in our continuing effort. The audit results we
                               presented in our report are consistent with information we
                               exchanged with management during our on-going dialogue.
                               In addition, throughout the course of our audit we consulted
                               with subject matter experts as circumstances may have
                               dictated—and those experts routinely guided and validated
                               our work.




                                                iv
Mail Transport Equipment Service Center                                            TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                                          INTRODUCTION
 Background 	                  The Mail Transport Equipment Service Center Network is a
                               centrally managed system of 22 “contractor-operated”
                               service centers designed to supply Postal Service mail
                               processing facilities—and certain large customers—with
                               mailbags, trays, sleeves, pallets, hampers, carts, and large
                               rolling containers. The service centers deliver equipment to
                               users with “dedicated” transportation, recover it when
                               equipment is no longer needed or serviceable, and then
                               process it for inventory or redelivery. Processing involves
                               receiving, sorting, and inspecting equipment for repair or
                               disposal.

                               The network was initiated in 1992 as a pilot, with a
                               prototype center in Greensboro, North Carolina. In 1997,
                               Postal Service management prepared a Decision Analysis
                               Report recommending a $1.3 million capital investment to
                               implement the contractor-operated system as a replacement
                               for the Postal Service operated system in place at the time.
                               The old system had been plagued by problems of poor
                               equipment quality, availability, and delivery delays. The
                               analysis forecasted the new system would:

                               •	 Improve performance and customer satisfaction by
                                   delivering “the right amount of quality mail transport
                                   equipment to the right place at the right time.”

                               •	 Reduce 10-year operating expenses from $3.9 billion to
                                  $3.6 billion by achieving operating efficiencies, and as a
                                  result, save an average of more than $30 million per
                                  year.

                               On June 30, 1997, the Board of Governors accepted the
                               recommendation and approved the Decision Analysis
                               Report. Fielding of the network was scheduled to begin in
                               November 1997, phased in over 17 months, and be
                               completed by April 1999. However, fielding was not
                               completed until January 2000. From the outset, the new
                               network was troubled by allegations of poor performance
                               and excessive costs. As a result, the Board of Governors
                               asked the Office of Inspector General to evaluate the
                               program. This report is part of a series of reports.




                                                1
Mail Transport Equipment Service Center                                           TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

 Objective, Scope, and         The objective of our report was to determine whether the
 Methodology                   Mail Transport Equipment Service Center Network would
                               achieve the performance and financial benefits anticipated
                               by the Decision Analysis Report.

                               During our work we observed operations at Postal Service
                               facilities and 8 of the 22 service centers. We interviewed
                               contractors and Postal Service personnel, including the
                               executive director, Mail Transport Equipment Service
                               Center Program; Area Mail Transport Equipment specialists;
                               Network Transportation specialists; and contracting officers.
                               We analyzed transportation routes, mileage, and costs for
                               all 22 service centers. We evaluated contracts, regulations,
                               and other documents, including the Decision Analysis
                               Report, and Postal Service investment policies and
                               procedures. We analyzed performance and financial
                               records. To determine if anticipated performance
                               improvements were achieved, we conducted a statistical
                               survey of 89 user facilities from December 1999 through
                               January 2000 and projected our results to a national
                               statistical population of 301 facilities. We also conducted
                               follow-up telephone interviews with seven area mail
                               transport equipment specialists during August 2000.
                               Because fielding was not completed until January 2000, we
                               adjusted the Decision Analysis Report planned cash flow to
                               actual cash flows to properly evaluate financial results. A
                               detailed description of our audit and survey methodology is
                               contained in Appendices A and B.

                               Our audit was conducted from August 1999, through
                               May 2001, in accordance with generally accepted
                               government auditing standards and included such tests of
                               internal controls, as were considered necessary under the
                               circumstances. We discussed our conclusions and
                               observations with appropriate management officials and
                               included their comments where appropriate.

 Prior Audit Coverage          Mail and Other Items Missent to Mail Transport Equipment
                               Service Centers (TR-AR-00-007), dated April 5, 2000,
                               concluded that mail erroneously shipped to service centers
                               placed the security and timely delivery of mail at risk.
                               Management agreed with all of our recommendations and
                               actions taken or planned should correct the issues identified
                               in our report.




                                                2
Mail Transport Equipment Service Center                                             TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits


                               Extra Trip Expenditures at the Dallas Bulk Mail Center
                               (TR-AR-00-008) dated June 30, 2000, concluded that the
                               Postal Service incurred unnecessary highway transportation
                               costs because mail transport equipment was not available
                               from the Dallas Mail Transport Equipment Service Center.
                               Management agreed with all of our recommendations and
                               actions taken or planned should correct the issues identified
                               in our report.

                               Extra Trip Expenditures within the Mid Atlantic Area
                               (TR-AR-00-009) dated July 27, 2000, concluded that the
                               Postal Service incurred unnecessary transportation costs in
                               part because three centers in the Mid Atlantic Area were
                               unable to obtain adequate mail transport equipment.
                               Management agreed with all of our recommendations and
                               actions taken or planned should correct the issues identified
                               in our report.

                               Adequacy of Mail Transport Equipment Center Network
                               Internal Controls (TR-AR-01-001) dated October 31, 2000,
                               concluded that mail transport equipment was invoiced as
                               processed when work was not performed; that containers
                               were reported as repaired when no repairs were made; that
                               serviceable equipment was improperly condemned and
                               discarded; and that deficiencies were caused by inadequate
                               separation of duties, insufficient record keeping, and
                               insufficient quality assurance. Management agreed with all
                               of our recommendations and actions taken or planned
                               should correct the issues identified in our report.

                               Contracting Practices for the Procurement of Mail Transport
                               Equipment Services (CA-AR-01-001) dated February 27,
                               2001, concluded that the Postal Service may pay up to
                               $53 million more for services obtained under noncompetitive
                               contracts than it would have for the same or similar services
                               obtained under competitive contracts. The report also
                               concluded that the Postal Service paid a contractor over
                               $1.9 million for work not properly authorized, and is at risk of
                               being charged an additional $11.2 million for other
                               unauthorized work. Management generally agreed with our
                               recommendations but did not agree with all of our findings.
                               Management agreed to work with its noncompetitive
                               contractor to reduce contract costs and to implement
                               improvements in seeking contract competition, issuing letter




                                                3
Mail Transport Equipment Service Center                                          TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                               contracts, and making unauthorized commitments.
                               However, management questioned our finding that it may
                               pay up to $53 million more to its noncompetitive contractor.
                               Management also disagreed with our conclusions regarding
                               the basis for the noncompetitive awards and that all the
                               contracts could have been awarded competitively, resulting
                               in more fair and reasonable contract prices overall. We
                               maintain that all contracts could have been awarded
                               competitively because the Postal Service had prequalified
                               17 contractors. Prices offered by these contractors were up
                               to $53 million less than the noncompetitive contractor.
                               Because management's planned or implemented actions
                               are responsive and address the issues identified in this
                               report, no further action is required.




                                               4
Mail Transport Equipment Service Center                                                       TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                                                   AUDIT RESULTS
Performance Benefits 	 Based on our survey of 89 Postal Service facilities
                       conducted between December 1999 through January 2000,
                       and our follow-up telephone interviews with seven area mail
                       transport equipment specialists conducted during
                       August 2000, the new Mail Transport Equipment Service
                       Center Network is performing better than the old Postal
                       Service operated system. However, the survey and the
                       interviews also revealed the new system still needed
                       improvement to achieve standards specified by the Decision
                       Analysis Report. Report standards require the new network
                       to deliver “the right amount of quality mail transport
                       equipment to the right place at the right time”—and as a
                       result:

                                         •	 Improve customer satisfaction and confidence by
                                             eliminating the need to order more equipment than
                                             necessary—or “hoard” equipment to accommodate
                                             broken or incorrect shipments.

                                         •	 Ease employee frustration.

                                         •	 Enhance mail operations by reducing the diversion of
                                            Postal Service employees and facilities to mail transport
                                            equipment requirements.

                                         Our customer satisfaction survey1 conducted from
                                         December 1999 through January 2000 indicated
                                         performance during network implementation could have
                                         been improved. Specifically, the survey revealed that:

                                         •	 More than 105 facilities, or more than 35 percent of our
                                            total statistical population of 301 user facilities, returned
                                            equipment to service centers without using it, and did so
                                            because they had not ordered it, did not need it, or
                                            found it unacceptable.

                                         •	 More than 135 facilities, or more than 45 percent of our
                                            total statistical population, felt equipment was
                                            unavailable.



1
    See Appendix B for a detailed description of our survey design and methodology.




                                                                  5
Mail Transport Equipment Service Center	                                         TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits


                               •	 More than 150 facilities, or more than 50 percent of our
                                  total statistical population, felt shortages were caused
                                  because the equipment did not exist within the system
                                  or the system was improperly managed.

                               •	 More than 50 facilities, or more than 18 percent of our
                                  total statistical population, had employees searching for
                                  equipment more than 6 hours per day.

                               •	 More than 45 facilities, or more than 16 percent of our
                                  total statistical population, used unscheduled
                                  transportation to return equipment, and more than
                                  35 facilities, or more than 13 percent, scheduled extra
                                  transportation to obtain equipment.

                               Telephone interviews with 7 of 11 Area Mail Transport
                               Equipment specialists who responded to our inquiries during
                               August 2000 indicated that although standards still had not
                               been achieved, conditions were slowly improving, and the
                               new system was better than the old. One equipment
                               specialist was “very satisfied,” most indicated the new
                               system provided better service, and all expressed some
                               level of satisfaction. But most also cited continuing
                               problems like equipment shortages, system reliability, and
                               trucks moving empty in one direction. Some were
                               concerned about costs.

                               Respondents indicated the cause of network difficulties
                               included:

                               •	 Returning usable equipment to service centers for
                                  processing and reissue when the equipment could be
                                  used until it was no longer serviceable.

                               •	 “Hoarding” equipment at facilities because the network
                                  was not reliable.

                               •	 Trucks moving empty because the network was
                                  “suboptimized.”




                                               6
Mail Transport Equipment Service Center                                             TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits


                               Although interviews indicated the new system was better
                               than the old, respondents felt it was not delivering the right
                               equipment to the right place at the right time. As a result,
                               customers were still not satisfied, employees still felt
                               frustrated, and mail operations were still not optimized.




                                                7
Mail Transport Equipment Service Center                                                           TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits


Financial Benefits 	           The service center network will not achieve the financial
                               benefits anticipated by the Decision Analysis Report.
                               Instead, the program will exceed the 10-year $3.6 billion
                               cost forecast by more than $1.4 billion. As a result, 10-year
                               forecasts for the new system now exceed the old system by
                               more than $1.1 billion. See Figures 1 and 2.
                                DOLLARS IN 	                                          FORECAST
                                 BILLIONS                                           “ACTUAL” COST
                                                                                      $5 BILLION
                                    5

                                    4.5
                                                                                             OLD “POSTAL
                                                        TEN YEAR                            OWNED” SYSTEM
                                    4                     COST                                $3.9 BILLION
                                                        FORECAST
                                    3.5
                                                                                            DECISION ANALYSIS
                                                                                                 REPORT
                                    3                                                          $3.6 BILLION


                                    2.5

                                    2

                                    1.5

                                    1

                                    0.5

                                     0
                                          98 99 00 01 02 03 04 05 06 07 08
                                                                   YEAR
                                                         CURRENT FORECAST OF “ACTUAL” 10-YEAR COST - $5 BILLION
                                                        OLD “POSTAL-OPERATED” SYSTEM - $3.9 BILLION

                                                        DECISION ANALYSIS REPORT COST - $3.6 BILLION

                                                                     Figure 1


                               Decision Analysis Report forecasts were inaccurate
                               because:

                               •	       Equipment processing and repair volume was
                                        significantly higher than expected.




                                                    8
Mail Transport Equipment Service Center                                                 TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                               •	 Forecast savings from transportation were not realized.

                               •	 Additional service center space was required.

                               •	 Service center “start-up” and continuing operations cost
                                  more than anticipated.

                               •	 Savings associated with the Greensboro, North
                                  Carolina, service area were inaccurately calculated.
                                                        $1.4 BILLION COST OVERRUN
                                                   SERVICE CENTER
                                                     OPERATIONS   OTHER   ANALYTICAL ERROR
                                                      $94 MILLION COSTS      $177 MILLION
                                           FACILITIES
                                          $100 MILLION

                                                              TRANSPORTATION
                                                                $1.0 BILLION




                                                                   Figure 2

                               Cost overruns may have been less than apparent because
                               senior management slowed expenditures for all approved
                               Postal Service investment projects. Consequently, the
                               service center network, which was originally scheduled to
                               be fully fielded by April 1999, was not completed until
                               January 2000. As a result, delayed timing of scheduled
                               expenditures may have caused the program to appear
                               within budget.

                               Postal Service Handbook F-66, General Investment Policies
                               and Procedures, dated April 1999, requires managers to
                               track approved Decision Analysis Report projects, issue
                               compliance reports to ensure the Board of Governors is
                               advised regarding progress toward anticipated goals, and
                               submit modification requests for Board approval when
                               confronted with unforeseen conditions like unanticipated
                               volume and cost overruns. Although managers expressed
                               early concern about volume, and took some action to
                               mitigate impact on operations and cost, their compliance
                               reports did not fully portray the problem—and they did not
                               submit a modification request to the Governors for approval.
                               Consequently, the Board may not have been fully cognizant
                               of the magnitude of the problem or of actions management
                               planned in order to compensate. As a result, costs for
                               transportation, facilities, operations, and other requirements



                                                    9
Mail Transport Equipment Service Center                                            TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                               may have increased without sufficient awareness by the
                               Board—or benefit of their emphasis on corrective action.

Volume	                        The Decision Analysis Report underestimated repair and
                               processing volume during the first 2 years of operation.
                               Specifically it estimated the network would repair or process
                               778 million pieces of equipment. However, the Postal
                               Service actually paid for more than a billion pieces. See
                               Figure 3.


                                                 PROCESSING VOLUME
                                                                      ACTUAL 2-YEAR VOLUME
                                                                        1.1 BILLION PIECES

                               DECISION ANALYSIS REPORT
                                    2-YEAR FORECAST
                                   778 MILLION PIECES




                                                           Figure 3


                               Postal Service managers, including the executive director,
                               Mail Transport Equipment Service Center Program; Network
                               Transportation specialists; and Area Mail Transport
                               Equipment specialists, were unable to completely identify
                               reasons for unanticipated volume. However, they
                               suggested that operational changes, unanticipated
                               inventory, and changes in mail classification may have
                               contributed to the increase. For example, they explained:

                               •	   Under the old system, facility staff was encouraged to
                                    reuse equipment without processing. Under the new
                                    system it is easier to return equipment to service centers
                                    for processing and reissue.

                               •	   Processing requirements were subject to modification.
                                    For example, cardboard trays—discarded under the old
                                    system—are now repaired.




                                                10
Mail Transport Equipment Service Center	                                           TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits


                               •	   Under the old system, facilities hoarded equipment.
                                    When the service center system was implemented more
                                    equipment was “turned-in” than anticipated.

                               •	   Mail reclassification led to an increase in equipment
                                    needs.

                               In addition to reasons provided by Postal Service managers,
                               volume statistics and associated costs could have been
                               adversely impacted by other factors. For example, when
                               user facilities returned equipment without using it—because
                               they did not order it, because they did not need it, or
                               because they found it unacceptable—the equipment was
                               sometimes improperly recorded and invoiced as processed
                               when work was not actually performed. We identified this
                               situation in our October 31, 2000, report, Adequacy of Mail
                               Transport Equipment Center Network Internal Controls, but
                               because of the identified control weakness, we could not
                               quantify the impact on volume or cost.

                               Managers did not adequately react to unexpected increases
                               in reported volume, in part, because the Decision Analysis
                               Report did not contain a sensitivity or risk analysis to
                               consider how marginal changes in volume might affect
                               network operations and cost. Consequently, as volume
                               increased, program costs increased.

Dedicated 	                    The forecast $1 billion dedicated transportation overrun was
Transportation	                the most significant affecting the program—more than
                               70 percent of the total. The Decision Analysis Report
                               forecast 10-year dedicated transportation cost at
                               $118 million—but actual costs could exceed $1.12 billion.
                               Costs will exceed forecasts for two principal reasons:

                               •	 As previously discussed, the network will transport more
                                  volume than forecasted, and as a result, incur extra
                                  mileage. Specifically, analysis of mileage for all
                                  22 service centers indicated increases of at least
                                  15 million miles annually. In addition, unanticipated
                                  mileage costs could be further exacerbated by
                                  unpredictable factors like rising fuel prices.

                               •	 Dedicated transportation suboptimizes transportation
                                  capacity. Specifically, the network does not take full




                                                11
Mail Transport Equipment Service Center                                            TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                                    advantage of capacity available by rail or trucks moving
                                    mail. For example, under the old Postal Service
                                    operated system, trucks delivering equipment to user
                                    facilities, returned with mail—or vice versa—and trucks
                                    frequently moved equipment and mail at the same time.
                                    Because the Decision Analysis Report assumed
                                    dedicated transportation would replace trips formerly
                                    planned for equipment transport, it claimed savings.
                                    However, savings were not realized because the
                                    requirement to transport mail remained, and the trips
                                    were not cancelled. Instead, trucks frequently moved
                                    empty in one direction. Suboptimized transportation
                                    cost about $310 million because only $444 million of the
                                    forecasted $754 million in savings were realized.

Facility Space                 Mail transport equipment service centers will require
Requirements                   1.4 million square feet more space than the Decision
                               Analysis Report specified, and consequently, will cost about
                               $100 million more over the next 10 years than forecasted.
                               The analysis was understated because it did not anticipate
                               the unexpected equipment volume discussed earlier.
                               Specifically, the analysis identified a 3.3 million square foot
                               space requirement, but the Postal Service actually leased
                               about 4.7 million square feet. Consequently, over the next
                               10 years, the Postal Service will pay $262 million rather
                               than the forecasted $162 million.

Service Center          Service center operations, including costs for processing
Operations and Start-Up and repairing mail transport equipment, will exceed the
Costs                   10-year, $2 billion, Decision Analysis Report forecast by
                        about $100 million. Specifically, the Postal Service will pay
                        almost $2.1 billion, rather than the $2.0 billion forecasted.
                        Although unanticipated volume is the principal cause for the
                        forecast discrepancy, the situation is somewhat unique.
                        About $70 million of the excess costs were “start-up” costs.
                        Project managers explained that under the old system,
                        facilities hoarded equipment. The managers further
                        explained that when the new system was implemented,
                        excess inventory was turned-in, hit the processing and
                        repair cycle, and caused a costly, “one-time,” operating
                        “spike.” Finally managers explained that they took action to
                        normalize the “spike,” and that most service centers were
                        now operating within anticipated parameters.




                                                12
Mail Transport Equipment Service Center                                          TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

Greensboro, North              The Decision Analysis Report understated the 10-year cost
Carolina                       of the Greensboro, North Carolina, service area by
                               $177 million because of an analytical error. Had the Postal
                               Service not implemented the new network, the 10-year
                               forecasted cost of servicing the Greensboro area would
                               have been approximately $80 million. When the Postal
                               Service discontinued the old system in Greensboro, the
                               Decision Analysis Report properly registered an $80 million
                               savings. The 10-year forecasted cost of the current
                               Greensboro Service Center is also about $80 million.
                               Consequently, conversion from the old to the new in
                               Greensboro was essentially a “wash.” However, the
                               conversion from old to new was not direct. Greensboro was
                               the sight of the “prototype” service center. Had the
                               “prototype” continued to operate as such, its 10-year
                               forecasted cost would have been $177 million. When the
                               Postal Service redesignated the facility as a “service
                               center,” the analysis improperly registered an additional
                               $177 million savings. Consequently, the 10-year financial
                               benefit was overstated by that amount.

Recommendation 	               We recommend that the vice president, Network Operations
                               Management:

                              1. 	 Develop a Decision Analysis Report Modification
                                   Request to adjust for unanticipated conditions, and
                                   submit the request to the Board of Governors for
                                   approval.

Management's                  Management disagreed with our finding and
Comments                      recommendation. They stated that neither the original
                              Decision Analysis Report nor subsequent Decision Analysis
                              Modification Requests were required. They provided the
                              following two reasons.

                               •	 The Mail Transport Equipment Service Center Program
                                  was not technically a capital program.

                               •	 Unanticipated costs were volume driven, and as such,
                                  were only operating variances not requiring a Decision
                                  Analysis Report revision.

Evaluation of                  Management’s comments were not responsive to our
Management's                   recommendation. The Mail Transport Equipment Service
Comments                       Center Program does not have to be a capital program to



                                               13
Mail Transport Equipment Service Center                                           TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                              require a Decision Analysis Report Modification Request,
                              and significant overruns of financial targets are not excluded
                              from Decision Analysis Report modification requirements
                              simply because they are volume driven. We are concerned
                              that management considers cost overruns of the magnitude
                              forecast in our audit as merely operating variances.

                              Postal Service Handbook F-66, General Investment Policies
                              and Procedures identifies both “Capital Investments” and
                              “Major Operating Expense Investments” as types of
                              investments subject to Decision Analysis Report provisions,
                              including requirements for a Decision Analysis Report
                              Modification Request. Paragraph 1-4 defines a “Major
                              Operating Expense Investment” as a major operational
                              change that “results in the expenditure of operating funds in
                              excess of $7.5 million over the project period.” The Mail
                              Transport Equipment Service Center Program was a major
                              operational change—switching from a Postal Service
                              operated system to a contractor operated system—and it
                              forecast expenditures of $3.6 billion over 10 years.
                              Paragraph 1-4 also specifies that major operating expense
                              investments are subject to requirements identified by
                              Postal Service Handbook F-66D, Other Investment-Related
                              Policies and Procedures. F-66D supplements the policies
                              and procedures specified by F-66. It states:

                               •	 Major operating expense investments must be
                                  supported by a Decision Analysis Report.

                               •	 Major operating expense Decision Analysis Reports
                                  must include sufficient data—including data on the
                                  impact of volume changes—to allow approving officials
                                  to fully evaluate long term financial implications.

                               •	 Major operating expense investments must be tracked
                                  to ensure they meet targeted results—and in the event
                                  they do not—program officials must follow the standard
                                  Decision Analysis Report modification requirements that
                                  apply to other investments.

                              We believe that published Postal Service investment policies
                              clearly require submission of a Decision Analysis Report
                              Modification Request. We view these recommendations as
                              unresolved, and plan to pursue it through the formal audit
                              resolution process.




                                               14
Mail Transport Equipment Service Center                                           TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits


Recommendation                2. 	 Reduce operating volume, consistent with contract
                                   volume guarantees, by requiring facilities to reuse
                                   serviceable equipment rather than returning it to service
                                   centers for processing.

Management’s 	                 Management agreed with our finding and recommendation.
Comments 	                     They stated that requiring facilities to reuse serviceable
                               equipment when economically feasible was current Postal
                               Service policy.

Evaluation of                  Management’s comments were responsive to our finding 

Management's                   and recommendation.

Comments 


Recommendation                3.   Improve efficiency and lower cost by reducing the
                                   shipment of Mail Transport Equipment on dedicated
                                   networks.

Management's 	                Management agreed with our finding and recommendation.
Comments 	                    They stated they would take steps to optimize transportation
                              and reduce costs by incorporating mail on returning trips,
                              and by maximizing the use of one-way highway service and
                              balanced round trip highway transportation.

Evaluation of                 Management’s comments were responsive to our finding
Management's                  and recommendation. We believe the actions taken and
Comments                      planned should correct the issues identified in our report.

Other Management’s            In their response, management made additional comments
Comments                      not necessarily associated with specific recommendations.
                              We will summarize and evaluate those comments here.

                               •	 Management stated that because surveys and
                                  telephone interviews conducted to evaluate network
                                  performance were taken during network
                                  implementation, they were premature, biased, and
                                  inaccurate.

Evaluation of                 Network implementation began in November 1997, and from
Management's                  the outset, was troubled by allegations of poor performance.
Comments                      Our audit was initiated at the request of the Board of
                              Governors and was intended, in part, to evaluate those early
                              allegations. Our survey was conducted using valid sampling




                                               15
Mail Transport Equipment Service Center                                            TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                              methods as described in Appendix B. As a result of our
                              work, we reported that respondents felt the new system was
                              better than the old, but still needed improvement. We noted
                              management’s belief that a survey conducted now would be
                              more accurate. We believe our survey was accurate—and
                              accurately reflected perceptions at the time it was taken.
                              However, we agree that a survey taken now might produce
                              different results. Consequently, we are considering such a
                              survey during potential follow-up work.

Management’s                  Management stated that including prior audit results in our
Comment                       report without including management’s responses presented
                              a biased picture.

Evaluation of                 We considered management’s comment and added
Management's                  management responses to the reports summarized in the
Comment                       prior audit section of this report.

Management’s                  In general, management made several comments on the
Comments                      source, interpretation, and accuracy of our data, and
                              questioned whether we considered certain principals of
                              transportation and logistics. They also reiterated their belief
                              that on technical grounds they were not required to submit a
                              Decision Analysis Report Modification Request.

Evaluation of                 We noted management’s additional comments. However,
Management's                  throughout our audit we routinely met with senior managers
Comment                       and officials to update them on the progress and preliminary
                              indications of our work. During those meetings, we routinely
                              sought input and differing perspectives, and we considered
                              that information in our continuing effort. The audit results we
                              presented in our report are consistent with information we
                              exchanged with management during our on-going dialogue.
                              In addition, throughout the course of our audit we consulted
                              with subject matter experts as circumstances may have
                              dictated, and these subject matter experts routinely guided
                              and validated our work. As we stated in the objective,
                              scope, and methodology paragraphs of our report, our audit
                              was conducted in accordance with generally accepted
                              government auditing standards. Consequently, we consider
                              our audit techniques, methods, and results valid.

                              Beyond management’s comments concerning the details of
                              our work, we noted that management did not significantly
                              challenge the magnitude of our results. The Postal Service



                                               16
Mail Transport Equipment Service Center                                          TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                              is facing a potential 10-year cost overrun of more than
                              $1 billion. The Mail Transport Equipment Service Center
                              Program involves an expenditure of $3.6 billion. Clearly, the
                              Board of Governors has a major interest in being fully
                              informed. The Decision Analysis Report process facilitates
                              the flow of information. We reiterate our recommendation
                              that management develop a Decision Analysis Report
                              Modification Report to adjust for the unanticipated
                              conditions, and submit the request to the Board of
                              Governors for approval.




                                               17
Mail Transport Equipment Service Center                                                       TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                       APPENDIX A. AUDIT METHODOLOGY
To evaluate the Decision Analysis Report line items, the OIG reviewed contractor
invoices, service center operation reports, transportation, and budget account and
general ledger data.

Site Selection

We visited mail transport equipment service centers, bulk mail centers, and processing
and distribution centers during January and February 2000. Mail transport equipment
service centers were judgmentally selected from a universe of 22 centers operated by
5 separate contractors representing large, medium, small, and half-small size facilities.
We also visited Postal Service facilities in close proximity to each service center
selected.

At each service center and Postal Service facility visited, we interviewed relevant
contractors and Postal Service personnel and observed operations.

                                                     Number of
                    Processing    Processing       Postal Facilities
 MTESC Location        Size       Size (sq. ft.)     Supported         Supplier        Area

 Los Angeles        Large             100k                18              A       Pacific
 Cincinnati         Large             100k                16              B       Allegheny
 Washington DC      Large             100k                15              C       Capitol Metro
 Chicago            Large             110k                25              D       Great Lakes
 New Jersey         Medium            80k                 16              A       NY Metro
 San Francisco      Medium             80k                18              D       Pacific
 St. Louis          Small              60k                 3              E       Mid-west
 Denver             ½ Small            40k                13              E       Western


Additionally, during audit survey, we toured the service center and interviewed relevant
personnel at the Greensboro, North Carolina, Service Center.

Cash Flow Adjustment – Years 1 and 2

The Postal Service is required to prepare a Decision Analysis Report to enable
approving officials to make an informed decision regarding expenditures of Postal
Service funds. The Decision Analysis Report Cash Flow Summary for the Mail
Transport Equipment Service Center Program documented planned expenditures over
a 10-year period assuming all 22 service centers would be operational during the first
year. Delays in program implementation resulted in only 9 service centers operating in
the first year with the remaining 13 service centers opening in the second year. To
effectively compare actual expenditures to planned expenditures the OIG adjusted the
Decision Analysis Report cash flow for years 1 and 2 to coincide with actual service
center implementation dates.




                                                    18
Mail Transport Equipment Service Center                                                            TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

To adjust the Decision Analysis Report Planned Costs for each category we first
calculated the fraction (percent) of the year that each facility was to be in operation,
including consideration of the partial capability during the phase in period for the first
two years. Then we calculated the corresponding percentage for the adjusted schedule
to recalculate the adjusted cost. The adjusted cost is, therefore, the planned cost
divided by the planned percentage multiplied by the adjusted percentage. Using the
cost for service center operations we illustrate this methodology. Tables 1 and 2 depict
the planned cost and percent of the year each service center was to be operational and
the actual percentage of the year each center was operational with the adjusted costs.
Costs as shown in Tables 1 and 2 are in thousands and the percentages have been
rounded to two decimal places.

We used this methodology for all line items except three to which it did not apply--
Consulting and Engineering, area and headquarters staffing, and Contract
Administration. Tables 1 and 2 show the results of all line items adjusted for schedule
delays.

                                  Table 1-Decision Analysis Report Year 1
                             (Costs in 000's and percentages have been rounded)
                                                           Planned        Actual
                      Service C enter      Planned Cost P ercentage to Percentage     Adjusted Cost
                                                        be Operational O perational

                   G reensboro, N C         $    10,822         100%            0%        $            -
                   Newark, NJ                    13,237           85%          75%            11,793
                   Chicago, IL                   12,984           62%          83%            17,528
                   Los Angeles, CA               11,864           62%          68%            13,050
                   Mem phis, TN                   4,486           46%           5%               449
                   Denver, CO                     3,514           46%           3%               234
                   Cincinnati, O H                5,745           38%           0%                     -
                   Minneapolis, M N               3,134           38%           2%               125
                   Springfield, MA                4,502           31%           0%                     -
                   Dallas, TX                     3,400           31%           0%                     -
                   W ashingon, DC                 5,030           23%           2%               335
                   S aint Louis, M O              3,167           23%           0%                     -
                   Atlanta, G A                   3,436           15%           5%             1,031
                   P hiladelphia, PA              3,601           15%           2%               360
                   Detroit, MI                    2,642            9%           0%                     -
                   San Francisco, CA              3,916            9%           0%                     -
                   Des M oines, IA                2,223            5%           0%                     -
                   Kansas City, MO                2,269            5%           0%                     -
                   Jacksonville, FL               2,308            2%           0%                     -
                   Long Island, NY                3,334            2%           0%                     -
                   P ittsburgh, PA                2,989            0%           0%                     -
                   Seattle, W A                   2,538            0%           0%                     -
                                     Totals $   111,141                               $       44,906




                                                      19
Mail Transport Equipment Service Center                                                                TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits
                                  Table 2 Decision Analysis Report Year 2
                              (Costs in 000's and percentages have been rounded)
                                                            Planned
                                                                            Actual
                                                          Percentage                        Adjusted
                      Service Center       Planned Cost                  Percentage
                                                             to be                           Cost
                                                                         O perational
                                                          O perational
                   Greensboro, NC          $     8,440           100%            77%    $       6,492
                   N ewark, N J                 14,122           100%          100%            14,122
                   Chicago, IL                  19,883           100%          100%            19,883
                   Los Angeles, CA              14,333           100%          100%            14,333
                   M em phis, TN                 7,983           100%            85%            6,755
                   Denver, CO                    6,105           100%            78%            4,790
                   Cincinnati, OH               15,392           100%            80%           12,314
                   M inneapolis, MN              7,277           100%            75%            5,486
                   Springfield, MA              10,911           100%            72%            7,889
                   Dallas, TX                    9,266           100%            78%            7,270
                   W ashingon, DC               14,308           100%            74%           10,566
                   Saint Louis, M O              8,688           100%            75%            6,549
                   Atlanta, GA                  10,009           100%            88%            8,777
                   Philadelphia, PA             10,298           100%            80%            8,238
                   Detroit, M I                  7,399            98%            72%            5,434
                   San Francisco, CA            11,661            98%            62%            7,288
                   Des Moines, IA                5,134            95%            63%            3,395
                   Kansas City, MO               5,270            95%            63%            3,485
                   Jacksonville, FL              5,289            91%            66%            3,855
                   Long Island, NY               8,072            91%            60%            5,336
                   Pittsburgh, PA                6,812            85%            54%            4,335
                   Seattle, W A                  5,896            85%            71%            4,931
                                    Totals $   212,548                                  $    171,524


Extrapolating Actual Costs – Years 3 - 10

For the line items reviewed, direct materials, facilities lease cost, transportation cost and
savings, current contract savings, service center contract and other costs, we calculated
the average cost over the period for which all facilities were fully operational. We first
annualized the average accounting period cost, using actual costs for the accounting
periods after all facilities were fully operational. Second, to the annual amount thus
calculated, we applied Postal Service Decision Analysis Report volume growth factors
and economic escalation factors to extrapolate costs for years 3 through 10.

Direct materials, service center contract, and the integration contract costs, under the
line item description other contract costs, were annualized using the actual cost
averages for accounting periods 10 through 13. Transportation costs were annualized
using actual cost averages for accounting periods 5 through 9. We then applied the
same Postal Service escalation factors used in calculating the Decision Analysis Report
for each Decision Analysis Report year 3 through 10.




                                                    20
Mail Transport Equipment Service Center                                      TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

We used the contract cost in Decision Analysis Report years 3 through 7 for the Quality
Assurance contract because this contract was recently let and those costs we believe
best represented the expected program costs for those years. We applied the Postal
Service escalation factors to remaining years.

The cost savings claimed from the current contract line item was removed from the
Decision Analysis Report Cash Flow Summary completely because these savings were
erroneously claimed. See program savings in this report for further explanation.

Performance Survey and Telephone Interviews

To determine if performance improvements specified by the Decision Analysis Report
were achieved or if progress toward specified goals was made, we conducted a survey
and follow-up telephone interviews.

From December 1999 through January 2000 we conducted a survey of internal
customers. To conduct our survey we contacted 89 facilities serviced by the Service
Center Network. At each facility contacted, we interviewed the individual responsible for
mail transport equipment and asked them to complete a questionnaire. We then
tabulated and summarized results. See Appendix B for a detailed description of survey
design.

Because the survey was conducted prior to complete network implementation, we felt
results might not be representative of long-term performance. Consequently, we
conducted a follow-on telephone interview with seven area mail transport equipment
specialists during August 2000. Participants responded to predetermined questions and
provided additional comments. We then summarized results.




                                           21
Mail Transport Equipment Service Center                                        TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

APPENDIX B. STATISTICAL SAMPLING AND PROJECTION FOR MAIL
     TRANSPORT EQUIPMENT SERVICE CENTER SURVEY

Sample Design And Modifications

We conducted a survey of internal customers from December 1999 through
January 2000. Our audit universe consisted of a total of 320 Postal Service facilities
like bulk mail centers, processing and distribution centers, processing and distribution
facilities, and airmail centers. The list of these facilities was provided by the Mail
Transport Equipment Service Center Program Office. The facilities were organized in
eight supplier clusters.

To establish our statistical selection, we used a stratified random sample design to allow
statistical projection of several measures of satisfaction with the centers. Each supplier
cluster was considered a stratum. For all strata, facilities were selected using the
dBase random number generator that is incorporated into the Army Audit Agency’s
Statistical Sampling Software package (SSS), dated 1992. A total sample size of
120 was calculated to provide a two-sided 95 percent confidence interval with
approximately 7 percent precision. This total resulted in a planned sample size of
15 facilities per stratum. Because two strata were small, the sample size for those
strata was reduced slightly. A total of 113 sites were selected for review.

Both the sample and the audit universe were modified when the response rate for the
St. Louis, Kansas City, and Denver cluster was found to be extremely low. Responses
were obtained from only 6 of the 11 facilities selected in that cluster. Therefore, that
cluster was deleted from the sample and the audit universe, and no projections made
here are presumed to apply to the facilities within that cluster. The resulting audit
universe consisted of 301 facilities, in seven strata, and the sample contained a total of
102 facilities. Because the program was not fully operational, all 102 sites were not yet
serviced by mail transport equipment service centers. Of the 102 sites, we contacted
89. At those facilities we interviewed the individual responsible for mail transport
equipment and asked them to complete a questionnaire.

Projections

Methodology
The survey results were analyzed using the attribute equations for a stratified sample,
as described in Chapter 5 of Elementary Survey Sampling, Scheaffer, Mendenhall, and
Ott, c.1990.

Most strata had one or more nonresponses. Each attribute is analyzed by determining
“logical bounds.” To generate the logical bounds, the confidence interval is computed
for each attribute for each of two scenarios: (1) all nonresponses are assumed to be




                                            22
Mail Transport Equipment Service Center                                          TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

“positive” with respect to the subject attribute, and (2) all nonresponses are assumed to
be “negative” with respect to the subject attribute.

Results

Attribute 1: Facility returns equipment to the Mail Transport Equipment Service
Center Network without using the equipment and does so because they had not
ordered it, do not need it, or find it unacceptable.

The logical bounds are that 35 percent to 60 percent of the audit universe return unused
equipment.

Scenario 1 - all nonresponses counted as “positive,” i.e., the nonresponding facilities do
return equipment unused for one of the three reasons stated: based on the sample
results, we are 95 percent confident that 151 to 182 facilities, or 50 percent to
60 percent of the audit universe, return unused equipment for one of the three reasons
stated. The point estimate for this scenario is that 167 facilities (55 percent) return
unused equipment for one of the three reasons stated.

Scenario 2 - all nonresponses counted as “negative,” i.e., the nonresponding facilities
do not return equipment unused or return it for reasons other than those stated above:
based on the sample results, we are 95 percent confident that 106 to 132 facilities, or
35 percent to 44 percent of the audit universe, return unused equipment for one of the
three reasons stated. The point estimate for this scenario is that 119 facilities (39.5
percent) return unused equipment for one of the three reasons stated.

Attribute 2: Facility representative feels that needed equipment is unavailable.

The logical bounds are that 45 percent to 70 percent of the audit universe feel needed
equipment is unavailable.

Scenario 1 - all nonresponses counted as “positive,” i.e., the representatives for the
non-responding facilities feel needed equipment is unavailable: based on the sample
results, we are 95 percent confident that 177 to 212 facility representatives, or
59 percent to 70 percent of the audit universe, feel needed equipment is unavailable.
The point estimate for this scenario is that 195 facility representatives (65 percent) feel
needed equipment is unavailable.

Scenario 2 - all nonresponses counted as “negative,” i.e., the representatives for the
nonresponding facilities feel needed equipment is available: based on the sample
results, we are 95 percent confident that 135 to 166 facility representatives, or
45 percent to 55 percent of the audit universe, feel needed equipment is available. The
point estimate for this scenario is that 150 facility representatives (50 percent) feel
needed equipment is available.




                                             23
Mail Transport Equipment Service Center                                          TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

Attribute 3: Facility representative attributes shortages to lack of equipment
and/or improper management.

The logical bounds are that 52 percent to 80 percent of the audit universe attribute
shortages to lack of equipment and/or improper management.

Scenario 1 - all nonresponses counted as “positive,” i.e., the nonresponding facility
representatives attribute shortages to lack of equipment and/or improper management:
based on the sample results, we are 95 percent confident that 205 to 241 facilities, or
68 percent to 80 percent of the audit universe, attribute shortages to the stated causes.
The point estimate for this scenario is that 223 facilities (74 percent) attribute shortages
to the stated causes.

Scenario 2 - all nonresponses counted as “negative,” i.e., the nonresponding facility
representatives do not attribute shortages to lack of equipment and/or improper
management: based on the sample results, we are 95 percent confident that 157 to
189 facilities, or 52 percent to 63 percent of the audit universe, do not attribute
shortages to the stated causes. The point estimate for this scenario is that 173 facilities
(57 percent) do not attribute shortages to the stated causes.

Attribute 4: Facility personnel spend 6 or more hours per day seeking mail
transport equipment.

The logical bounds are that 18 percent to 40 percent of the audit universe spend 6 or
more hours per day seeking mail transport equipment.

Scenario 1 - all nonresponses counted as “positive,” i.e., personnel at the non­
responding facilities spend 6 or more hours per day seeking mail transport equipment:
based on the sample results, we are 95 percent confident that personnel at 94 to
120 facilities, or 31 percent to 40 percent of the audit universe, spend 6 or more hours
per day seeking mail transport equipment. The point estimate for this scenario is that
personnel at 107 facilities (36 percent) spend six or more hours per day seeking mail
transport equipment.

Scenario 2 - all nonresponses counted as “negative,” i.e., personnel at the non­
responding facilities spend less than 6 hours per day seeking mail transport equipment:
based on the sample results, we are 95 percent confident that personnel at 53 to
72 facilities, or 18 percent to 24 percent of the audit universe, spend less than 6 hours
per day seeking mail transport equipment. The point estimate for this scenario is that
personnel at 63 facilities (21 percent) spend less than 6 hours per day seeking mail
transport equipment.




                                             24
Mail Transport Equipment Service Center                                        TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

Attribute 5: Facility uses unscheduled transportation to obtain mail transport
equipment.

The logical bounds are that 13 percent to 36 percent of the audit universe use
unscheduled transportation to obtain mail transport equipment.

Scenario 1 - all nonresponses counted as “positive,” i.e., the nonresponding facilities
use unscheduled transportation to obtain mail transport equipment: based on the
sample results, we are 95 percent confident that 81 to 107 facilities, or 27 percent to
36 percent of the audit universe, use unscheduled transportation to obtain mail transport
equipment. The point estimate for this scenario is that 94 facilities (31 percent) use
unscheduled transportation to obtain mail transport equipment.

Scenario 2 - all nonresponses counted as “negative,” i.e., the nonresponding facilities
do not use unscheduled transportation to obtain mail transport equipment: based on
the sample results, we are 95 percent confident that 38 to 59 facilities, or 13 percent to
19 percent of the audit universe, do not use unscheduled transportation to obtain mail
transport equipment. The point estimate for this scenario is that 49 facilities
(16 percent) do not use unscheduled transportation to obtain mail transport equipment.

Attribute 6: Facility uses unscheduled transportation to return mail transport
equipment.

The logical bounds are that 16 percent to 39 percent of the audit universe use
unscheduled transportation to return mail transport equipment.

Scenario 1 - all nonresponses counted as “positive,” i.e., the nonresponding facilities
use unscheduled transportation to return mail transport equipment: based on the
sample results, we are 95 percent confident that 89 to 116 facilities, or 30 percent to
39 percent of the audit universe, use unscheduled transportation to return mail transport
equipment. The point estimate for this scenario is that 103 facilities (34 percent) use
unscheduled transportation to obtain mail transport equipment.

Scenario 2 - all nonresponses counted as “negative,” i.e., the nonresponding facilities
do not use unscheduled transportation to obtain mail transport equipment: based on
the sample results, we are 95 percent confident that 48 to 69 facilities, or 16 percent to
23 percent of the audit universe, do not use unscheduled transportation to obtain mail
transport equipment. The point estimate for this scenario is that 58 facilities
(19 percent) do not use unscheduled transportation to obtain mail transport equipment.




                                            25
Mail Transport Equipment Service Center               TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits

                  APPENDIX C. MANAGEMENT’S COMMENTS




                                          26
Mail Transport Equipment Service Center        TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits




                                          27
Mail Transport Equipment Service Center        TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits




                                          28
Mail Transport Equipment Service Center        TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits




                                          29
Mail Transport Equipment
         Mail Transport   Service Center
                        Equipment  Service Center                                                                         TR-AR-01-003
                                                                                                                                  TR-AR-01-003
 Decision Analysis
          Decision Report Performance
                   Analysis Report Performance
 and Financial Benefits Benefits
          and Financial




 Greensboro Contract Costs
 PROJECT YEAR                                         1         2         3          4        5         6         7         8         9        10      total
 Current contract savings                    -   16,039    16,761    17,515    18,303    19,127    19,988    20,887    21,827    22,809    23,835    197,091
 Depreciation & Interest Expense      (831)       (781)     (731)     (681)     (631)     (416)     (388)     (360)     (333)     (305)          -   (5,457)
 Direct Labor                         (676)      (4,613)   (4,618)   (4,422)   (4,216)   (4,259)   (4,320)   (4,402)   (4,504)   (4,625)   (4,768)   (45,422)
 Indirect labor                       (169)       (720)     (731)     (729)     (725)     (739)     (754)     (771)     (790)     (811)     (833)    (7,772)
 Indirect Non-personnel               (230)       (734)     (747)     (749)     (750)     (765)     (781)     (799)     (819)     (840)     (863)    (8,076)
 G&A and Fee                          (450)      (1,618)   (1,613)   (1,555)   (1,494)   (1,459)   (1,475)   (1,496)   (1,523)   (1,555)   (1,527)   (15,764)
 Subtotal contract cost             (2,356)      (8,466)   (8,440)   (8,136)   (7,816)   (7,638)   (7,718)   (7,828)   (7,969)   (8,136)   (7,991)   (82,491)
 Net contract savings               (2,356)       7,573     8,321     9,379    10,487    11,489    12,270    13,059    13,858    14,673    15,844    114,600
 Logistics Management                             (432)     (443)     (454)     (465)     (477)     (489)     (501)     (513)     (526)     (539)    (4.838)
 Contract Quality Control                           (38)      (14)      (11)      (11)      (11)      (12)      (12)      (12)      (13)      (13)    (149)
 Net contract savingsl(costs)       (2,356)       7,103     7,864     8,914    10,011    11.001    11,769    12,546    13,333    14,134    15,292    109,614
 Current contract savings          197,091
 Subtotal contract cost            (82,491)
 net                               114,600




                                                                                30
Mail Transport Equipment Service Center        TR-AR-01-003
 Decision Analysis Report Performance
 and Financial Benefits




                                          31
